No. _ _ _ __

IN THE SUPREME COURT OF THE UNITED STATES

STEPHEN M. PATTERSON, JR., PETITIONER

v.
UNITED STATES OF AMERICA, RESPONDENT

PROOF OF SERVICE

I, Steven R. Jaeger, Esq., do swear or declare that on this date, the 28th day of

December, 2020, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, and by electronically filing with this Court.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
Seth A. Hancock, Esq.
U.S. Attorney Office - Paducah
501 Broadway
Paducah, KY 42001

I declare under penalty of perjury that the foregoing is true and correct.
Executed this 28th day of December, 2020.
Respectfully Submitted,

0~~J~
STEVEN R. JAEGER, ESQ.
(KBA 35451)
THE JAEGER FIRM, PLLC
23 Erlanger Road
Erlanger, Kentucky 41018
TELE: (859) 342-4500
EMAIL: srjaeger@thejaegerfirm.com

Counsel for Petitioner

